Report No. DODIG-2013-024                November 26, 2012





      U.S. Army Corps of Engineers Needs to Improve

         Contract Oversight of Military Construction

          Projects at Bagram Airfield, Afghanistan

Additional Copies
To obtain additional copies of this report, visit the website of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at auditnet@dodig.mil.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for Auditing at
auditnet@dodig.mil or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
APS                           Army Prepositioned Stock
COR                           Contracting Officer’s Representative
LOGCAP                        Logistics Civil Augmentation Program
MILCON                        Military Construction
QA                            Quality Assurance
QC                            Quality Control
RMS                           Resident Management System
TAN                           Afghanistan Engineering District-North
USACE                         U.S. Army Corps of Engineers
                                    INSPECTOR GENERAL
                                     DEPARTMENT OF DEFENSE
                                     4800 MARK CENTER DRIVE
                                  ALEXANDRIA, VIRGINIA 22350-1500

                                                                              November 26, 2012

MEMORANDUM FOR AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: U.S. Army Corps of Engineers Needs to Improve Contract Oversight of Military
         Construction Projects at Bagram Airfield, Afghanistan
         (Report No. DODIG-2013-024)

We are providing this report for your information and use. U.S. Army Corps of Engineers,
Afghanistan Engineering District-North quality assurance personnel did not properly monitor
contractor performance and fulfill quality assurance responsibilities for the four military
construction projects, valued at $49.6 million, that we reviewed at Bagram Airfield. We
considered management comments on a draft of this report when preparing the final report.

The Deputy Commander, U.S. Army Corps of Engineers, Transatlantic Division comments
conformed to the requirements of DoD Directive 7650.3 and left no unresolved issues.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8905 (DSN 664-8905).




                                             Amy J. Frontz
                                             Principal Assistant Inspector General
                                               for Auditing

cc:
Commander, U.S. Central Command
Commander, U.S. Forces-Afghanistan
Commander, U.S. Army Central
Commanding General, U.S. Army Corps of Engineers
Report No. DODIG-2013-024 (Project No. D2012-D000JB-0071.000)                     November 26, 2012

               Results in Brief: U.S. Army Corps of
               Engineers Needs to Improve Contract
               Oversight of Military Construction Projects at
               Bagram Airfield, Afghanistan
                                                           they were not aware of their responsibilities
What We Did                                                because USACE TAN officials did not provide
This audit is one in a series of reports on military       enough guidance or training to QA personnel
construction projects in Afghanistan. Our                  operating in a contingency environment. Further,
objective was to determine whether the U.S.                QA personnel stated they were either unaware of,
Army Corps of Engineers (USACE) provided                   did not see a need for, did not have time to follow,
effective oversight of military construction               or did not have proper personnel to follow QA
projects at Bagram Airfield, Afghanistan. We               guidance. As a result, USACE did not have
determined whether USACE properly monitored                reasonable assurance that contractors’ quality
contractor performance during construction and             control programs were effective and the four
adequately performed quality assurance                     MILCON projects met or would meet contract
oversight responsibilities.                                requirements.

What We Found                                              What We Recommend
USACE Afghanistan Engineering District-North               Among other recommendations, we recommend
(TAN) quality assurance (QA) personnel did not             that the Commander, USACE TAN verify that
properly monitor contractor performance and                project engineers develop supplemental project
fulfill quality assurance responsibilities for the         QA plans and approve contractor quality control
four military construction projects reviewed at            plans before contractors begin construction; direct
Bagram Airfield, valued at $49.6 million.                  contracting officers to verify the performance of
Specifically, QA personnel did not: develop                requirements in their designation memoranda;
supplemental project QA plans; approve                     access the availability of technical specialists and
contractors’ quality control plans before                  verify the use of technical specialists to support
contractors began construction; maintain QA                the conduct of technical inspections; and conduct
documentation of QA personnel surveillance                 training for QA personnel on QA surveillance
activities; follow responsibilities in the                 requirements in a contingency environment.
contracting officer’s designation memoranda;
and request technical specialists to perform               Management Comments and
technical inspections. In addition, QA personnel           Our Response
relied on the Logistics Civil Augmentation                 Although the Deputy Commander, U.S. Army
Program contractor to perform infrequent                   Corps of Engineers, Transatlantic Division,
technical inspections and relied on their own              disagreed with one aspect of the finding, he
experience to identify construction deficiencies.          agreed with the recommendations, and the
                                                           comments were responsive. No further
These conditions occurred because USACE TAN                comments are required.
officials did not provide sufficient oversight of
QA personnel. For example, QA personnel stated

                                                       i
Report No. DODIG-2013-024 (Project No. D2012-D000JB-0071.000)     November 26, 2012


Recommendations Table

        Management                  Recommendations         No Additional Comments
                                   Requiring Comment                  Required
Commander, U.S. Army Corps of                              1, 2, 3, 4, 5, and 6
Engineers Afghanistan
Engineering District-North




                                         ii
Table of Contents

Introduction                                                                 1


      Objective                                                              1     

      Background                                                             1     

      Selection of Military Construction Projects                            1

      Criteria for Quality Assurance                                         2

      Review of Internal Controls                                            3


Finding. U.S. Army Corps of Engineers Afghanistan Engineering 

District-North Contract Oversight of Military Construction Projects 

Was Not Effective                                                            4


      Supplemental Project Quality Assurance Plans Needed to Be Developed    4

      Contractors’ Quality Control Plans Not Approved                        6

      Improvements Needed in the Maintenance of Project Documentation        8

      Contracting Officers’ Designation Memoranda Responsibilities 

        Not Followed                                                        10 

      Increased Performance of Technical Inspections of Contractors’ 

        Performance Needed                                                  12 

      Impact of Not Providing Project Oversight                             15 

      Conclusion                                                            15     

      Management Comments on the Finding and Our Response                   15 

      Recommendations, Management Comments, and Our Response                16 

      Management Comments on the Internal Controls and Our Response         18 


Appendix

      Scope and Methodology                                                 19 

             Projects Reviewed                                              19     

             Use of Computer-Processed Data                                 20 

             Prior Coverage                                                 20     


Management Comments

      U.S. Army Corps of Engineers Transatlantic Division                   21 

Introduction
Objective
This audit is one in a series of military construction (MILCON) projects in Afghanistan. 

Our overall objective was to determine whether U.S. Army Corps of Engineers (USACE) 

provided effective oversight of MILCON projects at Bagram Airfield, Afghanistan. Specifically, 

we determined whether USACE properly monitored contractor performance during construction 

and adequately performed quality assurance (QA) oversight responsibilities. See the Appendix 

for the audit scope, methodology, and prior coverage related to the audit objective. 


Background
The USACE mission is to provide vital public engineering services to strengthen our Nation’s
security, energize the economy, and reduce risks from disasters. According to DoD Directive
4270.5, “Military Construction,” February 12, 2005, USACE is the Army’s construction agent
for the design or construction execution responsibilities associated with MILCON program
facilities, and is the lead construction agent supporting the U.S. Central Command area of
responsibility, including Afghanistan. As the lead construction agent, USACE is responsible for
performing oversight of MILCON contractors and conducting contract administration. USACE
Afghanistan Engineering District-North (TAN), located in Kabul, Afghanistan, administers
construction projects at Bagram Airfield, Afghanistan.1

Selection of Military Construction Projects
In January 2012, USACE TAN officials provided a list of 51 MILCON projects in Afghanistan
that were assigned to them for contract administration. The projects, valued at $635.8 million,
were funded for FYs 2010 and 2011. We identified 20 construction projects that were at least
40 percent completed. Of the 20 projects, five were located at Bagram Airfield. We
nonstatistically selected four of the five projects, totaling approximately $49.6 million, for
review. The projects selected were:

    	 Project No. 71491, Army Prepositioned Stock (APS) Compound
       (Contract No. W912ER-10-C-0027). The purpose of the project was to construct three
       storage warehouses to support tactical vehicles and a vehicle maintenance facility. The
       contract was awarded on April 19, 2010. Including contract modifications, the value of
       the project was $24.4 million. The contractor completed the APS Compound project in
       July 2012, 8 months beyond the planned contract completion date.




1
USACE TAN, Bagram Area Office is responsible for conducting the oversight and QA for construction projects at
Bagram Airfield.

                                                      1

    	 Project No. 71489, Barracks, Phases 11-14 (Contract No. W912ER-10-C-0044). The
       purpose of the project was to construct four concrete masonry unit barracks
       (phases 11-14) to provide housing for 560 military personnel. The contract was awarded
       on September 25, 2010. Including contract modifications, the contract was valued at
       $12.0 million. The project, planned for completion in May 2012, is expected to be
       completed in December 2012.

    	 Project No. ATUH100101, Passenger Terminal (Contract No. W912ER-10-C-0028).
       The purpose of the project was to construct a 3,764 square meter, two-story
       pre-engineered metal building. The contract was awarded on May 14, 2010. Including
       contract modifications, the Passenger Terminal project was valued at $8.0 million. The
       contractor completed the Passenger Terminal project in September 2011. However,
       deficiencies were identified that required the contractor to do additional work. The
       contractor corrected the majority of those deficiencies in February 2012. QA personnel
       indicated that all remaining issues were resolved, as of June 1, 2012.

    	 Project No. 69398, Fuel System, Phase 6 (Contract No. W912ER-10-C-0024). The
       purpose of the project was to construct a bulk fuel storage system that included a
       4,164 cubic meter (1.1 million gallons) storage tank, pumps, filters, equipment, controls,
       and lines. The contract was awarded on March 30, 2010. Including contract
       modifications, the Fuel System project was valued at $5.2 million. The Fuel System
       project was planned for completion in June 2012. However, the contractor completed the
       project in October 2012.

For each of the four projects, a USACE TAN contracting officer designated Bagram Area Office
QA personnel as contracting officer’s representative (COR) to provide contract administration.2

Criteria for Quality Assurance
Federal Acquisition Regulation subpart 46.1, “Quality Assurance-General,” states that
Government contract QA consists of various functions and inspections performed by the
Government to determine whether a contractor fulfilled the contract obligations pertaining to
quality and quantity. USACE Engineer Regulation 1180-1-6, “Construction Quality
Management,” September 30, 1995, states that QA is the system by which the government
fulfills its responsibility to be certain the contractors’ quality control (QC) is functioning and the
specified end product is realized.

The Afghanistan Engineer District, U.S. Army Corps of Engineers District Level Quality
Assurance Plan for Construction (District-Level QA Plan) revised April 2011, states that
obtaining quality construction is the responsibility of both the construction contractor and the
government with the mutual goal of providing a quality product conforming to contract




2
 FAR 46.104, “Contract Administration Office Responsibilities,” include developing and applying efficient
procedures for performing Government contract QA actions under the contract and performing all actions necessary
to verify whether the supplies or services conform to contract quality requirements.

                                                       2

requirements. Key QA personnel responsible for managing and executing construction contracts
include:

    	 Area Engineer - manages the mission and personnel within the area of responsibility.
       The area engineer works through the resident engineers to properly manage projects and
       personnel assigned to them. The area engineer ensures that QA procedures are
       implemented and establishes local policy and procedures to enhance implementation of
       quality construction.

    	 Resident Engineer - manages the area office on behalf of the area engineer, provides
       guidance on the implementation of an effective QA program, and sees that the program is
       successfully executed. The resident engineer serves as the primary COR on most
       contracts. The CORs for the four MILCON projects were designated by contracting
       officers.

    	 Project Engineer - provides overall project management from Notice-to-Proceed to final
       closeout and served as the COR3 for assigned projects. The project engineer is
       responsible for QA of the project, with duties that include preparing supplemental project
       QA plans, conducting pre-construction and weekly progress meetings, ensuring the
       proper management and documentation of projects,4 and scrutinizing all payment
       applications.

    	 Construction Representative - works directly for the project engineer and resident
       engineer and serves as the “eyes and ears” on the project site. The construction
       representative reviews QCs and QA requirements and coordinates the technical
       inspections of mechanical, electrical, structural systems as required. The construction
       representative also prepares QA reports for inspections and documents daily construction
       progress.

The District-Level QA Plan provided detailed procedures and templates for QA personnel to
follow in completing documentation needed to perform and support QA implementation.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,” July 29,
2010, requires DoD organizations to implement a comprehensive system of internal controls that
provides reasonable assurance that programs are operating as intended and to evaluate the
effectiveness of the controls. We identified internal control weaknesses pertaining to USACE
TAN. USACE TAN officials did not provide sufficient oversight of QA personnel to ensure the
District-Level QA Plan for Construction and the FAR requirements were followed. We will
provide a copy of the report to the senior official responsible for internal controls at USACE
TAN.


3
  Initially, the project engineers served as CORs. However, beginning in November 2011, contracting officials began 

designating resident engineers as CORs.

4
  These tasks are also required of the area engineer and resident engineer. 


                                                         3

Finding. U.S. Army Corps of Engineers
Afghanistan Engineering District–North Contract
Oversight of Military Construction Projects Was
Not Effective
USACE TAN (Bagram Area Office) QA personnel did not properly monitor contractor
performance and fulfill quality assurance responsibilities for four MILCON projects reviewed at
Bagram Airfield, valued at $49.6 million, as required in the Federal Acquisition Regulation and
USACE guidance. Specifically, QA personnel5 did not:

       develop supplemental project QA plans for use in performing surveillance during
        construction;
       approve three of the four contractor’s QC plans before the contractors began
        construction;
       maintain required QA supporting documentation of surveillance activities performed
        during construction; and
       follow COR responsibilities cited in the contracting officers’ designation memoranda.

Additionally, QA personnel did not arrange to have technical inspections performed of
contractors’ construction efforts. Instead, QA personnel relied on the Logistics Civil
Augmentation Program (LOGCAP) contractor to perform infrequent inspections and relied on
their own experience to identify construction deficiencies.

These conditions occurred because USACE TAN officials did not provide sufficient oversight of
QA personnel. For example, QA personnel stated they were not aware of their responsibilities
because USACE TAN officials did not provide enough guidance or training to QA personnel on
functioning in a contingency environment. Further, QA personnel stated they were either
unaware of, did not see a need for, did not have time to follow, or did not have proper personnel
to follow QA guidance.

As a result, USACE did not have reasonable assurance that contractors’ QC programs were
effective and that the four MILCON projects reviewed met or would meet contract requirements.

Supplemental Project Quality Assurance Plans Needed to
Be Developed
Project engineers did not develop supplemental project QA plans specific to their construction
projects. The District-Level QA Plan states that a unique supplemental project QA plan must be
produced for every construction project,6 with consideration for factors, such as complexity,


5
  USACE TAN QA personnel consist of the area engineer, resident engineers, CORs, project engineers, and

construction representatives overseeing the construction of selected projects. 

6
  USACE Engineering Regulation 1180-1-6 requires QA plans to be developed during the project’s planning stage. 


                                                       4

duration, site accessibility, and security risk. At a minimum, supplemental project QA plans are
to include staffing, definable features of work7, QA surveillance responsibilities, specific QA
testing to include type and frequency, and project milestone dates. Before the start of work, the
definable features of work in the supplemental project QA plan must match those in the
contractor’s QC plan. The District-Level QA Plan provides a template for project engineers to
use as a guide in creating a supplemental project QA plan.

Project engineers did not develop a supplemental project QA plan for the APS Compound,
Barracks, and Passenger Terminal projects and only partially completed a supplement project
QA plan for the Fuel System project. For example, the project engineer for the Fuel System
project (Figure 1) provided a supplemental project QA plan that included staffing, milestone
dates, and some specific QA testing. However, the supplemental project QA plan did not
address definable features of work, QA surveillance responsibilities or the type and frequency of
job specific QA testing. Further, the resident engineer signed the supplemental project QA plan
on February 1, 2012, which was 18 months after construction began. For the Passenger Terminal
project, the project engineer did not develop a supplemental project QA plan until 5 months after
the project was completed.

                                  Figure 1. Fuel System Phase 6 Project




                              Source: DoD OIG

This occurred because project engineers did not see a need for having a supplemental project QA
plan in place. QA personnel stated they did not always have time to develop a supplemental
project QA plan and that they relied on contract technical provisions and their own experience
with construction to understand what needed to be done. One of the project engineers stated he
was not aware of the existence of the District-Level QA Plan.

As a result of not having supplemental project QA plans, QA personnel did not have QA plans in
place to ensure that their contract monitoring efforts were sufficient to verify whether the


7
 Definable feature of work is a task that is separate and distinct from other tasks and has separate control
requirements. QC and QA rely on the assignment of definable features of work within a project to monitor
contractor progress on construction projects.

                                                          5

contractors fulfilled contract obligations pertaining to quality and quantity. Also, Bagram Area
Office QA personnel did not formally plan and schedule their participation in the contractors’
three-phase inspection process used to verify whether supplies or services provided by the
contractors complied with contractual requirements.

Project engineers not making the time to develop supplemental project QA plans and relying on
their own personal experience to perform technical inspections did not provide the Government
with reasonable assurance that they were adequately monitoring the progress and performance of
contractors. Accordingly, project engineers should have developed supplemental project QA
plans for monitoring the progress and performance of contractors to ensure outcomes were
consistent with contract requirements. Therefore, the Commander, USACE TAN needs to verify
that project engineers develop supplemental project QA plans as required by the District-Level
QA Plan for Construction.

Contractors’ Quality Control Plans Not Approved
Project Engineers did not approve contractors’ QC plans for two of the projects, and for one
project, the project engineer approved the QC plan after construction started. The project
engineer approved the QC plan in a timely manner for the fourth project. The District-Level QA
Plan states that the contractor’s QC plans must be approved before commencement of physical
work and approved by the project engineer using ENG Form 4025-R, “Transmittal of Shop
Drawings, Equipment Data, Material Samples, or Manufacturer’s Certificates of Compliance.”
The District-Level QA Plan provides guidance on the minimum contents of the QC plan, to
include the name, qualifications, responsibilities of each person; procedures for tracking the
three-phase inspection process; and a list of the definable features of work. ENG Forms 4025-R
are approved or disapproved using action codes.8

                                          For example, the contractor’s QC plan for the APS
    Project engineers did not approve
                                          Compound (Figure 2) was not approved. The project
     contractors’ QC plans for two of
                                          engineer approved the ENG Form 4025-R (action code
     the projects, and for one project,
                                          “C” - resubmission required) for the APS Compound
    the project engineer approved the
                                          Project, 48 days after the contractor began construction.
    QC plan after construction started.
                                          The contractor was required to resubmit because the
contractor’s organizational chart did not include names of personnel and their qualifications.
Instead of the contractor resubmitting a new ENG Form 4025-R for the project engineer to
approve, the contractor only submitted a list of personnel and their qualifications. There was no
evidence that the project engineer approved the ENG Form 4025-R in consideration of the
contractor’s list of personnel and their qualifications.




8
Action codes includes, “A” - Approved as submitted; “B” - Approved, except as noted;
“C” - Approved, except as noted, resubmission required; and “E” - Disapproved.

                                                      6

                   Figure 2. Army Preposition Stock Compound Project




                        Source: DoD OIG

On the other project with an unapproved QC plan, the Passenger Terminal project, (Figure 3) the
project engineer disapproved (action code “E”) the ENG Form 4025-R because the contractor
did not provide a listing of key personnel and the key responsibilities of the QC manager. The
contractor was required to resubmit a new ENG Form 4025-R. In this case, the project engineer
did not have evidence that the contractor resubmitted the form for approval.

                            Figure 3. Passenger Terminal Project




                        Source: DoD OIG

For the remaining two construction projects:

          the project engineer approved the QC Plan for the Barracks project 30 days after
           construction started, and

          the project engineer approved the contractor’s QC plan in a timely manner for the
           Fuel System project.



                                               7

QA personnel were unaware of and could not explain why the ENG Form 4025-R was not
approved for the APS Compound and the Passenger Terminal projects or why they approved
ENG Form 4025-R after the project started. Without Government approval, there is no
assurance that the contractors’ QC plans conform to MILCON contract requirements. Therefore,
the Commander, USACE TAN, needs to verify that project engineers approve the contractors’
QC plans for MILCON projects before contractors start construction, as required by the
District-Level QA Plan for Construction.

Improvements Needed in the Maintenance of
Project Documentation
QA personnel did not always maintain critical documents needed to support ongoing QA efforts
and use the USACE project tracking system, Resident Management System (RMS), to store
essential QA documents.

Three-Phase Inspection Process Not Fully Documented
As part of the three-phase inspection process, project engineers and construction representatives
did not always keep the contractors’ meeting minutes to account for the performance and their
monitoring of preparatory and initial inspections. The District-Level QA Plan states the purpose
                                    of the three-phase inspection process is to provide a
      Project engineers and         procedure for QA personnel to assure that all construction,
   construction representatives     suppliers, and test laboratories comply with the applicable
     did not always keep the        drawings, specifications, approved submittals, and authorized
   contractors’ meeting minutes changes to the contract. The process consists of preparatory,
         to account for the         initial, and follow-up inspections and is primarily the
      performance and their         responsibility of the contractor. However, the District-Level
    monitoring of preparatory       QA Plan requires QA personnel, specifically the project
      and initial inspections.      engineer and construction representative, to actively
                                    participate in the three-phase inspection process.

According to the District-Level QA Plan, the preparatory inspection is a QC meeting with the
contractor to discuss definable features of work, whereby initial inspections provides a check of
preliminary work, to ensure compliance with contract requirements. Preparatory and initial
inspections are accomplished near the beginning of each definable feature of work. The
contractor documents each inspection with meeting minutes and the project engineer is required
to maintain records of those minutes. Table 1 (page 9) provides a summary of QA personnel’s
maintenance of meeting minutes of preparatory and initial inspections prepared by the contractor
for the four construction projects.




                                                8

               Table 1. Summary of Meeting Minutes of Preparatory and 

                    Initial Inspections Maintained by QA Personnel 

                    No. of Contractor        No. of Contractor     No. of Contractor
       Project       Meeting Minutes          Meeting Minutes        Meeting Minutes
                         Required                Available            Unavailable
                                          Preparatory     Initial
                                            Meetings    Meetings
  Passenger
                              116                   0             0               116
  Terminal
  APS Compound                 64                   18           15                31
  Fuel Systems                142                   0             0               142
  Barracks                     58                   20            2                36
  Total                       380                   38           17               325

Overall, contractors for the four projects had 190 definable features of work, for which the
contractors should have prepared a total of 190 preparatory and 190 initial meeting minutes
(total of 380 meeting minutes required). In this regard, project engineers did not have meeting
minutes for any of the contractors’ preparatory and initial meetings for the Passenger Terminal
and Fuel System projects. For the APS Compound project, the project engineer had 18 of the
preparatory meeting minutes and 15 of the initial meeting minutes and for the Barracks project
(Figure 4), the project engineer had 20 of the preparatory meeting minutes and 2 of the initial
meeting minutes. The remaining 325 preparatory and initial meeting minutes were unavailable.

                          Figure 4. Barracks, Phases 11-14 Project




                        Source: DoD OIG

This occurred because QA personnel stated that they were either not aware of the requirement to
maintain meeting minutes or that documenting meeting minutes was a contractor requirement,
and, therefore, they did not see a need to retain copies. QA personnel stated they regularly
participated in contractor meetings to ensure contract conformity, although they may not have
maintained contractor meeting minutes as required. QA personnel expected contractors to

                                               9

maintain preparatory and initial meeting minutes, but that was not always the case. For example,
for the Fuel System project, the contractor was unable to provide preparatory and initial meeting
minutes when requested by the project engineer.

Consequently, QA personnel could not show they were actively participating with contractors to
ensure contract requirements were met. Therefore, the Commander, USACE TAN, needs to
verify that project engineers and construction representatives attend contractors’ preparatory and
initial inspections and meetings and collect and maintain meeting minutes as part of the
contractors’ three-phase inspection process, as required by the District-Level QA Plan for
Construction.

Project Tracking System Not Used
Project engineers and construction representatives did not consistently use USACE’s project
tracking system, RMS, to store project documentation to facilitate project management. The
District-Level QA Plan states that project engineers are to ensure proper management through
storing of project documentation in the RMS computer program.

Documentation, such as contractor QC documents, meeting minutes supporting the contractors’
three-phased inspection process, and QA personnel daily site-visit reports, were not always
stored in RMS. QA documents, if available, were kept in file cabinets, outside storage
containers, or on computers. Additionally, RMS stored documents were not always completed in
accordance with the District-Level QA Plan. Document deficiencies included incomplete
documentation, missing pages, and lack of signatures.

Project engineers stated that this occurred because they did not always have time to take
information from the different storage sources and store in RMS. One QA construction
representative also informed us that he was inexperienced with using RMS.

Centrally storing information in RMS is essential to enable QA personnel to use the information
to manage the projects and to provide for project management continuity in the event of QA
personnel turnover. Therefore, the Commander, USACE TAN, needs to verify that QA
personnel at the Bagram Area Office begin immediately updating RMS with all essential QA
documentation as required by the District-Level QA Plan for Construction.

Contracting Officers’ Designation Memoranda
Responsibilities Not Followed
As the designated CORs for the four MILCON projects, resident engineers and project engineers
did not comply with contract administration responsibilities identified in the contracting officer’s
                                      designation memoranda. The contracting officer’s
   Resident engineers and project     designation memoranda required CORs to maintain
    engineers did not comply with     adequate records to describe and document the
       contract administration        performance of their duties. Files were to include QA
   responsibilities identified in the inspections of contractor’s performance, meeting minutes
  contracting officer’s designation with contractors, and records relating to QA plan. In
            memoranda.                addition, CORs performed limited technical inspections of

                                                10

contractors’ work and did not submit monthly status reports to the contracting officer, as
required in the contracting officer’s designation memoranda.

Adequate Records Not Maintained
CORs did not maintain adequate records to document the performance of their duties. Federal
Acquisition Regulation Subpart 4.8, “Government Contract Files,” states that contracting offices
are to establish files containing the records of all contractual actions, to include evidence of QA
records, to be a complete history of the transaction to provide a basis for making informed
decisions, to support actions taken, and to provide information for reviews and investigations.
The contracting officer’s designation memoranda required that such records be maintained in the
COR’s file. The memoranda stated that at a minimum, the COR file will contain a QA plan,
meeting minutes of inspections performed, and the results and minutes of pre-performance
conferences and meetings with the contractor pertaining to the contract or contract performance,
and records related to the contractor’s QC system and plan. None of the CORs files met these
requirements. For example, the COR file for the Fuel System project did not include records of
inspections performed, the results and minutes of pre-performance conferences, or
documentation of meetings, such as preparatory and initial inspection meetings with the
contractor.

Limited Inspections of Contractors’ Work Performed
CORs, through construction representatives, performed limited inspections of contractors’ work
to verify that the contractors complied with contract requirements. The contracting officer’s
designation memoranda required that CORs perform inspections to verify contractor
performance of the technical requirements of the contract in accordance with the contract terms,
conditions, and specifications and that all deficiencies be corrected by the contractor. Table 2
(page 13) summarizes the limited number of technical inspections performed by USACE
technical specialists for each project. The need for increased technical inspections is discussed
on page 12. As delegated, the CORs were responsible for ensuring that technical inspections
were performed of definable features of work to verify that the contractors were satisfying
contract requirements.

Monthly Status Reports Not Submitted
CORs did not initially submit monthly status reports to report to the contracting officers on
contractors’ performance. The contracting officers’ designation memoranda required the CORs
to submit a monthly report to the contracting officer concerning the contractors’ performance of
the services rendered. Despite the requirement in the
designation memoranda, an Office of Business                 CORs did not initially submit
Oversight Branch USACE TAN official, responding            monthly status reports to report to
on behalf of the contracting officer, stated that they         the contracting officers on
initially did not attempt to enforce the requirement           contractors’ performance.
for CORs to submit monthly status reports.
However, in December 2011, a COR stated that CORs were directed by USACE TAN to start
submitting monthly status reports. In February 2012, CORs began submitting monthly status
reports for their projects. Construction on the four MILCON projects had begun 14 to 20 months
earlier.


                                                11

To illustrate, the contractor completed the Passenger Terminal project in September 2011.
Although the project was identified as completed, the contractor continued to correct known
deficiencies through February 2012. In February 2012, the resident engineer submitted the first
monthly status report for the Passenger Terminal project. Since all deficiencies were identified
as corrected in February 2012, no additional reports were submitted.

Contracting officers’ designation memoranda responsibilities were not followed because QA
personnel did not believe that all the requirements in the contracting officers’ designation
memoranda were necessary. As a consequence, USACE TAN contracting officers did not
receive assurance from the CORs that the contractors’ performance was meeting the
requirements of the contract and regulatory guidance. Therefore, the Commander, USACE
TAN, needs to direct contracting officers to verify that CORs maintain complete records,
perform technical inspections of contractor’s work, and submit monthly status reports as required
in the contracting officers’ designation memoranda.

Increased Performance of Technical Inspections of
Contractors’ Performance Needed
QA personnel arranged to have performed a limited number of technical inspections of the
contractors’ construction efforts. The District-Level QA Plan requires construction
representatives to review QC and QA requirements before beginning any new phase of
                                     construction. In addition, they were to confirm the type of
    QA personnel arranged to         inspections to be performed, the frequency of testing, and
     have performed a limited        the procedures to be taken in the event of test failures.
       number of technical           Construction  representatives were to coordinate technical
  inspections of the contractors’ inspections of mechanical, structural, and electrical systems,
       construction efforts.         as required, drawing on the engineering section for advice
                                     throughout the project.

The four MILCON projects included key electrical, structural, mechanical features of work that
required technical inspections. However, construction representatives only arranged to have a
limited number of technical inspections performed. Table 2 (page 13) provides a summary of
technical inspections performed by USACE technical specialists as evidenced in QA personnel
site visit reports.




                                               12

                    Table 2. Summary of Technical Inspections Performed by 

                                USACE Technical Specialists 

          Project        No. of           No. of          First and           Key           Deficiencies
                        Recorded          Days            Last Day          Features          Found
                        Days for         Project         Technical         Inspected
                         Project          Was            Inspection
                                        Inspected           Was
                                                         Conducted
      Passenger
                            432               1            296/296          Electrical             0
      Terminal1
      APS                                                                 Electrical,
                            637               8            367/581                                62
      Compound1                                                           Mechanical
      Fuel
                            552               2            233/414          Electrical             1
      System2
      Barracks1             397               3            259/347          Electrical             0
      1
       Includes electrical; plumbing; sewage; fire suppression; communications; and heating, ventilating, and air 

      conditioning. 

      2
        Includes electrical, fuel storage tank, fuel pumps, filters, lines, and equipment/controls.


Construction representatives typically sought technical inspections pertaining to electrical
systems but neglected to have sewage, plumbing, and fire suppression systems technically
inspected. USACE technical specialists performed at least one electrical technical inspection on
all four projects while a mechanical technical inspection was only performed on the APS project.
On average, the first technical inspection performed for the four projects occurred 289 days after
the project was initiated. As required by the District-Level QA Plan, construction
representatives should have been coordinating and requesting technical personnel support to
perform technical inspections of mechanical, structural, and electrical systems throughout the
projects.

This occurred because, except for an electrical technician onsite, technical specialists needed to
conduct inspections were not available at the Bagram Area Office. To arrange for a technical
specialist outside of the Bagram Area Office, QA personnel were required to coordinate with
USACE TAN officials. However, QA personnel did not make such arrangements with USACE
TAN officials. Instead, QA personnel relied on their own experience to conduct the inspections,
even if they were not familiar with the key features of the work being performed. A project
engineer stated that USACE had construction books for project engineers and construction
representatives to reference if they were not familiar with a key feature of work. However, QA
personnel actions were not an acceptable substitute for obtaining a qualified technical specialist
to validate the acceptability of the contractors’ construction efforts.




                                                       13

Additionally, because technical specialists were not available at the Bagram Area Office, QA
personnel relied on technical support from the LOGCAP contractor to conduct such inspections.9
The LOGCAP contract includes requirements for the contractor to provide operation and
maintenance services for buildings on installations throughout Afghanistan. As part of their
contract requirements, the LOGCAP contractor conducts technical inspections before assuming
the maintenance responsibility for any buildings constructed by another contractor. During these
technical inspections, the LOGCAP contractor may identify substandard construction requiring
rework before they will assume responsibility for the maintenance of the building. When the
LOGCAP contractor identifies any deficiencies, they provide the information to USACE project
engineers for corrective action. The project engineers task the responsible MILCON contractor
to take corrective actions on the deficiencies and the construction representatives follow-up to
verify the deficiencies were corrected.

The LOGCAP contractor usually provided one to five technical specialists to conduct an
inspection. Inspections occurred at least three times throughout the project. The technical
specialists identified deficiencies related to plumbing, electrical, civil,10 and heating, ventilation,
and air conditioning. Although QA personnel relied on the LOGCAP contractor for technical
inspections, the LOGCAP contractor was not responsible for ensuring that MILCON contract
requirements for the four projects were met.

The Passenger Terminal project is a good example of the effect of not having technical
specialists participate in inspections of project features of work. On the Passenger Terminal
project, QA personnel did not use technical specialists to conduct plumbing inspections and
consequently, the QA personnel did not identify any plumbing deficiencies. The LOGCAP
contractor, on the other hand, conducted technical inspections after the project was accepted by
the user and identified several deficiencies. Deficiencies identified by the LOGCAP contractor
included too much fall or slope on the horizontal drainage pipes, pipe penetrations through the
slabs on and above the ground were not sealed to specifications, and lavatory drains were not
vented in accordance with the International Plumbing Code. The LOGCAP contractor indicated
that improper plumbing installations would cause functioning problems. These deficiencies
could have been detected during construction performance had technical specialists been
involved in inspections of project features of work.

As a result of construction representatives not coordinating and requesting technical support for
scheduled technical inspections, relying on their own experience to participate in the technical
inspections, and relying on the LOGCAP contractor for detecting construction deficiencies,
effective QA oversight was not performed to verify that the contractors met contract
requirements. Consequently, QA officials did not reduce the risk of MILCON contractors not
meeting contract requirements and USACE TAN paying for contractor services not rendered.
Therefore, the Commander, USACE TAN, needs to assess the availability of technical specialists
to support technical inspections at the Bagram Area Office and to verify that construction



9
  Inspections were for the APS Compound, Barracks, and Passenger Terminal projects. The Fuel System project 

was not subject to the LOGCAP. 

10
   Civil deficiencies include structural, framework, and concrete work.


                                                      14

representatives coordinate the need for technical personnel to perform technical inspections as
required by the District-Level QA Plan for Construction.

Impact of Not Providing Project Oversight
USACE does not have reasonable assurance that contractors’ QC programs were effective and
that the four MILCON projects met contract requirements. Because of the challenges associated
with working in a contingency environment, such as Afghanistan, the roles of QA personnel are
increasingly important in the QA process. In this environment, the need for CORs to more
effectively manage and document their execution of the QA program is needed because
incoming QA personnel need this information to properly administer and monitor projects.

Conclusion
The ineffective oversight of the four MILCON projects reviewed occurred because USACE
TAN officials did not provide sufficient oversight of QA personnel. QA personnel were either
unaware of, did not see a need for, or did not have time to follow internal guidance regarding
QA. Ensuring the full implementation of QA requirements in guidance and seeing to the
successful execution of the QA program is essential for construction in a contingency
environment. Therefore, the Commander, USACE TAN, needs to conduct training on the
requirements in the District-Level Quality Assurance Plan for Construction with all incoming
and current QA personnel.

Management Comments on the Finding and Our Response
Management Comments on Three-Phase Inspection Process
Not Fully Documented
The Deputy Commander, U.S. Army Corps of Engineers, Transatlantic Division, responding for
the Commander, USACE TAN, stated he did not agree with the DoD Office of Inspector General
contention that quality assurance personnel should have separate meetings for every definable
feature of work and corresponding sets of documented meeting minutes for each feature. He
stated the number of contractor meeting minutes required appears to be a requirement created by
the DoD Office of Inspector General that misinterprets the District Quality Assurance Plan
guidance. Additionally, he stated the USACE TAN District SOP C-8, Project-Level Quality
Assurance Plans, April 30, 2010, clarifies that “a minimum of four (4) team meetings shall be
conducted to develop, monitor, and execute the Project-Level QA Plan” and that the RMS also
includes functions to identify definable features of work and record quality control and quality
assurance testing.

Our Response
We did not establish that separate meetings for every definable feature of work should be held
and corresponding sets of documented meeting minutes should be shown for each feature.
Rather, USACE’s District-Level Quality Assurance Plan requires that the three-phase inspection
process be applied to each definable feature of work. However, quality assurance personnel
hosting consolidated meetings with contractors to discuss multiple definable features of work is
acceptable as long as quality assurance personnel can document and support in their meeting
minutes that each definable feature of work was addressed.

                                               15

Recommendations, Management Comments, and
Our Response
We recommend that the Commander, U.S. Army Corps of Engineers Afghanistan
Engineer District-North:

       1. Verify that project engineers develop supplemental project quality assurance
plans and approve contractor’s quality control plans for military construction projects
before contractors begin construction as required by the District-Level Quality Assurance
Plan for Construction.

Management Comments
The Deputy Commander, U.S. Army Corps of Engineers, Transatlantic Division, responding for
the Commander, USACE TAN, agreed with the recommendation. Specifically, the Deputy
Commander stated that the Commander, USACE TAN will continue to emphasize the
importance of supplemental quality assurance plans and documenting the approval of contractor
quality control plans. He stated that the area engineer will verify that those plans are developed
and approved before construction begins. Additionally, the Deputy Commander stated that the
USACE Transatlantic Division will validate, in March and June 2013, that supplemental quality
assurance plans and quality control plans are developed and approved before construction
begins.

       2. Verify that project engineers and construction representatives attend
contractors’ preparatory and initial inspections and meetings and collect and maintain
meeting minutes as part of the contractors’ three-phase inspection process as required by
the District-Level Quality Assurance Plan for Construction.

Management Comments
The Deputy Commander, U.S. Army Corps of Engineers, Transatlantic Division agreed with the
recommendation. The Deputy Commander stated that the Commander, USACE TAN will
continue to emphasize the importance of meetings with contractors and maintaining
documentation. He stated that while conducting monthly line-item reviews of area office
projects, the area engineer will verify to the Commander, USACE TAN that project engineers
are attending and documenting meetings. Additionally, the Deputy Commander stated that the
USACE Transatlantic Division will validate, during staff assistance visits in March and
June 2013, that USACE personnel are attending meetings with contractors as prescribed by the
District-Level Quality Assurance Plan for Construction and that supporting documentation is
being maintained.

     3. Verify that quality assurance personnel at the Bagram Area Office begin
immediately updating the resident management system with all required quality assurance
documentation as required by the District-Level Quality Assurance Plan for Construction.

Management Comments
The Deputy Commander, U.S. Army Corps of Engineers, Transatlantic Division agreed with the
recommendation. The Deputy Commander stated that the Commander, USACE TAN instructed

                                                16

Bagram Area Office personnel to ensure the RMS includes all required documentation. He
stated that during monthly line-item reviews, the status of updating information in the RMS will
be verified by the area engineer and reported monthly to the Commander, USACE TAN and
staff. Additionally, the Deputy Commander stated that USACE Transatlantic Division personnel
will validate, during staff assistance visits in March and June 2013, that Bagram Area Office
personnel are updating the RMS with required quality assurance documentation.

       4. Direct contracting officers to verify that contracting representatives maintain
complete records, perform technical inspections, and submit monthly status reports, as
required in the contracting officers’ designation memoranda.

Management Comments
The Deputy Commander, U.S. Army Corps of Engineers, Transatlantic Division agreed with the
recommendation. The Deputy Commander stated that during 2012, the Director of Contracting,
USACE issued additional policy for the certification and training of contracting officer’s
representatives. He stated that USACE TAN contracting implemented requirements of the new
policy and that the Commander, USACE TAN will continue to emphasize the importance of
documentation in contracting officer’s representative files. Additionally, the Deputy
Commander stated that the USACE Transatlantic Division will validate, during staff assistance
visits in March and June 2013, that contracting officer’s representatives are maintaining
complete records, performing technical inspections, and submitting monthly status reports.

       5. Assess the availability of technical specialists to support technical inspections at
the Bagram Area Office and verify that construction representatives coordinate and
request technical personnel support to perform technical inspections as required by the
District-Level Quality Assurance Plan for Construction.

Management Comments
The Deputy Commander, U.S. Army Corps of Engineers, Transatlantic Division agreed with the
recommendation. Specifically, he stated that at the end of July 2012, the USACE TAN,
Engineering and Construction Division, reorganized to reassign all quality assurance branch
personnel and resources to area offices to improve the availability of technical expertise and
enhance the quality assurance process. The Deputy Commander also stated that during monthly
line-item reviews, the area engineer will verify to the Commander, USACE TAN that sufficient
technical specialists are available and that technical inspections are being performed.
Additionally, he stated that the USACE Transatlantic Division will validate, during staff
assistance visits in March and June 2013, the number of quality assurance personnel assigned to
the Bagram Area Office and that technical inspections are being performed.

       6. Conduct training on the requirements in the District-Level Quality Assurance
Plan for Construction with all incoming and current quality assurance personnel.

Management Comments
The Deputy Commander, U.S. Army Corps of Engineers, Transatlantic Division agreed with the
recommendation. The Deputy Commander stated that the Area Office University provides
quality assurance training to all quality assurance personnel before deployment. Further, he

                                              17

stated that the Commander, USACE TAN will ensure that area engineers conduct additional
quality assurance training as needed on the District-Level Quality Assurance Plan for
Construction, with emphasis on the importance of inspections and comprehensive
documentation. Additionally, the Deputy Commander stated that the USACE Transatlantic
Division will validate, during staff assistance visits in March and June 2013, that quality
assurance personnel are adhering to the District-Level Quality Assurance Plan for Construction.

Our Response
Comments from the Deputy Commander, U.S. Army Corps of Engineers, Transatlantic Division
were responsive, and no additional comments are required.

Management Comments on the Internal Controls and
Our Response
Management Comments on Review of Internal Controls
The Deputy Commander, U.S. Army Corps of Engineers, Transatlantic Division stated that the
four projects reviewed were completed successfully, as evidenced by the pictures of the
completed facilities in DoD Office of Inspector General’s report. Further, he stated that USACE
believes that the actions being taken in response to DoD Office of Inspector General’s
recommendations will improve oversight and strengthen internal controls.

Our Response
We acknowledge receipt of pictures showing completion of the projects. However, the pictures
do not substantiate that the contractors’ quality control programs were effective and the projects
were completed in accordance with contract requirements. Without the required monitoring of
contractor performance and the required quality assurance responsibilities, USACE cannot
assure that the contractors fulfilled their contractual obligations to provide a quality product.




                                                18

Appendix. Scope and Methodology
We conducted this performance audit from December 2011 through October 2012 in accordance
with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Our objective was to determine whether DoD provided effective oversight of military
construction in Afghanistan. Specifically, our objective was to determine whether DoD properly
monitored contractor performance during construction and adequately performed the QA
oversight responsibility. To accomplish this objective, we reviewed documents dated from
March 2010 to July 2012 related to MILCON project requirements, including the contracts,
contract modifications, QA daily reports, DD Form 1354, “Transfer and Acceptance of DoD
Real Property,” COR designation letters and certifications, contractor QC plans, QA plans,
three-phase control schedules, weekly progress meeting minutes, Fluor Intercontinental
deficiency reports, and ENG Form 4025, “Transmittal of Shop Drawings, Equipment Data,
Material Samples, or Manufacturer’s Certificates of Compliance.”

We contacted staff and conducted interviews, as appropriate, with USACE TAN personnel
(Kabul and Bagram Area Office). USACE personnel we interviewed included contracting
officers, area engineers, CORs, resident engineers, project engineers, and construction
representatives. We conducted a site visit at the four selected projects, obtained source
documentation, and observed and examined key documents related to USACE TAN QA
oversight. We obtained and analyzed documents from Electronic Document Access System and
RMS and compared them to statements and documents provided by USACE personnel.

We reviewed Federal, DoD, Army, and USACE regulations, instructions, and guidance.
Specifically, we reviewed the Federal Acquisition Regulation; Defense Federal Acquisition
Regulation Supplement; Army Engineering Regulation 1180-1-6, “Construction Quality
Management,” September 30, 1995; and USACE Afghanistan Engineering District,
“District-Level QA Plan for Construction,” April 2011.

Projects Reviewed
In January 2012, USACE officials provided a list of 51 MILCON projects in Afghanistan for
FYs 2010 and 2011. We narrowed the list down to 20 projects by selecting the construction
projects that were at least 40 percent completed. Of the 20 projects, totaling approximately
$218.5 million, five projects were located at Bagram Airfield. We nonstatistically selected four
of the five projects at Bagram Airfield, totaling approximately $49.6 million for review. We
selected Project No. 71491, Army Prepositioned Stock Compound
(Contract No. W912ER-10-C-0027); Project No. 71489, Barracks, Phases 11-14
(Contract No. W912ER-10-C-0044); Project No. ATUH100101, Passenger Terminal
(Contract No. W912ER-10-C-0028); and Project No. 69398, Fuel System, Phase 6
(Contract No. W912ER-10-C-0024). We excluded the fifth project because it was under the
same management as the Passenger Terminal project.

                                                19

Use of Computer-Processed Data
We relied on computer-processed data from the Electronic Document Access System. Electronic
Document Access is a Web-based system that provides online access of acquisition-related
documents. We used the system to obtain contractual documents for the four contracts selected
for this audit. We compared those electronically-accessed documents with statements and
documents provided by USACE personnel. From these procedures, we are confident that the
Electronic Document Access website was sufficiently reliable for the purpose of acquiring
contract documents for our analysis of MILCON project oversight.
 
We also relied on computer-processed data from the RMS. The RMS is used by the USACE to
maintain and update documentation related to construction projects. To verify the reliability of
data, we tested documents provided by USACE by comparing those documents to what was
recorded in RMS. From these procedures, we are confident that the documentation in RMS was
sufficiently reliable for the purpose of acquiring construction oversight documents for our
analysis of the effectiveness of MILCON project oversight in Afghanistan.

Prior Coverage
During the last 5 years, the Department of Defense Office of Inspector General issued five
reports related to military construction projects in Afghanistan. Unrestricted DoD IG reports can
be accessed at http://www.dodig.mil/audit/reports.

DoD IG
DoD IG Report No. 2012-089, “Better Contract Oversight Could Have Prevented Deficiencies in
the Detention Facility in Parwan, Afghanistan,” May 17, 2012

DoD IG Report No. D-2012-057, “Guidance Needed to Prevent Military Construction Projects
from Exceeding the Approved Scope of Work,” February 27, 2012

DoD IG Report No. D-2010-059, “Contingency Contracting: A Framework for Reform,”
May 14, 2010

DoD IG Report No. SPO-2009-005, “Assessment of Electrical Safety in Afghanistan,”
July 24, 2009

DoD IG Report No. D-2008-119, “Construction Contracting Procedures Implemented by the
Joint Contracting Command-Iraq/Afghanistan,” September 29, 2008




                                               20

U.S. Army Corps of Engineers Transatlantic
Division Comments




                                             Enclosure not
                                             included in report




                                  21

SUBJECT: lJSACE. Comments to DODIG Draft Repon " U.S. Army Corps of Engineers Needs
to Impro ve Contract Oversight of Military Constructio n Projects at Bagrmn Airfi eld,
Afghanistan." Project No. D20 12-nOOOJB-0071.000


USACE comments arc provided for the Llraft report per the paragraphs identified anu fo r the
recommendations as shown.

R~view of Internal Controls. USACE would like to point out that the lour projects reviewed
by DODIG were cmnplc::led successfully as evidenceu by tlte pictures of the completed fat.:ilitics
shown in OODIG"s report. USACE believes that the actions being taken in response to
DODIG 's recommendations wi ll improve ov~;:rsight and strcngtht:n internal controls.

Finding. ILS. A rmy Cnrrs nf Engineers Afghanista n Engincuing District-North Contract
Oversight of Military Construction l'rojccts Was Not Effectiv e.

Three- Phase Inspection Process Not Fully Documented.

We disagree with the OoDIU contention that QA personnel should have separate "meetings" fo r
INt:ry "d~;: finab lc fcatun:: of work" emu th~:n::fon: corresponding ~et~ of documentcu "m~;:eti n g
minutes" lor each leature. The "No. o f Contractor Meeti ng Minutes Required" appears to be a
require ment created hy the DoDI G that misinterprels the Distrit:t QA Plan g uidance. As fu rther
clarified in the TAN District SOP C-8. Project- Level Quality 1\ssur.:tnce Plans, J O Apr 10. "a
minimum of four (4) leilm meetings shall he conducted In develop, monitor, and execute the
Project-Level QA Plan." The RMS also includes functions to identify definable features o r work
and record QC and QA testing.

Recommendations. We recommend tha t the Commander, li.S. Army Cm·ps of F.nginccrs
Afghanistan Engineer District-~orth:

Recommendation I. Verify that project engineers denlop supplemental project quality
assurance rlans a nd aprrovc contractor 's quality control pla ns for military construction
projects befor e contractors' begin construction us r equ ired by the District-Level Quality
Assur ance Plan for C onstruction.

Concur. Tht: Area Engineer wi ll vc::rify that supplemental quality assumnt:e plans and qual ity
control plans are developed and approved before construction begi ns. The USACE TAN
Commander wi II continue to emphas ize the importance of supplemental quality as~urance plans
a nd documenting the approval o f contractor quality control pla ns prior to construction start.
Additionally. the Transatlantic Division (TAD) will validate. during staff assistance visi ts in
March and June 2013. that supplemental quality assurance plans and quality control plans are
Lle~ d nped and approved before cunstruction hegi ns.


Recommendation 2. V~rify that project eng ineer s and construction representati\•es attend
contra.c tors' prepa ratory and initial inspections and meetings a nd coll~ct and ma intain
meeting minutes ~ts part· of the contractors ' three-phase inspection process as required by
the District-Level Quality Assur ance Plan for Construction.

                                            l'agc · I- ofJ




                                                                22

SU BJECT: USACE Commen ts to DODIG Draft Report ..U.S. Army Corps of Engineers Needs
to lmp.-ovc Contract Oversight of Mil itary Construction Projects at Bagram Airfie ld ,
Afghanistan," Project No. 020 12-DOOOJB-0071.000

Co n~ur. 'lltt: LJSACE TAN Commander and staff ~.:onduct monthly li.nc item reviews of area
office projects. During these reviews, the Area Engineer will verily to the TAN Com mander that
project eng i ne~:rs are attending and uucumenti ng m ee tin~. The TAN Co mmanuer w illt:ontinue
to emphasize the importance o f meetings with contractors and maintaining documentation.
Additionall y, TAD w ill validate, uurin ~ staff assistance visits in March and June 20 13, th<tt
US/\CE personnel arc attending meetings with contractors as prescribed by the District-Level
Quality Assurance Piau for Construction and that supporting documentation is being maintained.

Recommendation 3. Verify that quality assu rance personnel at the Bagram Ar ea Office
begin immed iately updating the re~idcnt m a nagement system with a ll requir·cd quality
1tssurancc documentation as t"etluire d by the District-Level Quality Assu r ance Plan fo r·
Construction.

Concur. The USACE TAN Commander has instructed Bagram Area Onice personnel to ensure
the Rcsidem Management System (RMS) includes all required documentation. The status of
updatin g in fo rmation in the RMS wi ll be verified by the Area Engineer and reported monthly to
the TAN Commander and staff during monthly line item reviews. Additionally. TAD w ill
validate. during stall assista nce visits in March and June 20 1J. that Bag ra m Area office
personnel are updating the RMS w ith required quality assurance documentation

Recommendation 4. Direct contracting officers to verify that co ntractin~ officer's
r c rresentatives main lain complete r ecords, perform tech nical inspections, :md submil
m o nthly status reports as required in the contracting officers' designation memoranda.

Concur. During 2012, the USACE D irector of Contracting issued additio na l pol icy lor the
~.:ertilicati on and tTaining of CORs. T AN Contracti ng has implemented requin:menls oft he new
policy and the TAN Commander will continue to emphasize the importance o f documentation i n
COR files. Additionally, TAD wi ll validate. d uring staff assistance visits in March and June
20 13, that CO Rs arc maintaining complete records, pertorming tech11ical inspections and
submitting monthly status reporls.

Recomm endation 5. Assess I he avai lability oftechniral srecialists to support techn ical
inspections a t the Bagram A rea Office and nrify that comtruction rerrcsentatives
coordinate a nd request technical personnel suppor1 to perform technical inspections as
required by the District-Lent Quality Assurance Plan for Construct ion.

Concur. At the end o f July 2012. the USACE TAN Engineering and Constmct ion Division
reorgani7ed to reassign all Quality Assurance Branch personnel and resources to Area Offices to
improve the availability of techn ical ex pertise and enhance the quality assurance process. During
m onthly line item reviews, wh ich are attended by the TAN Commander and staff, the Area
Engineer wi ll verify to the Commander that suffi cient technical specialists arc avai lable and that
technical inspections arc being perfonncd. Additionally, TAO will validate. during staff




                                                                23

SUBJECT: USACE Comments to DOD IG Draft Repon ··u.s. Army Corps of Engineers Needs
to Improve Contract Oversight of Military Construction Projects at Bagram Airfield.
Afghanistan," Project No. 020 12-DOOOJ B-0071.000

assistance visits in March and June 2013 the number of quality assurance personnel assigned to
the Bagram Area Office and that technical inspections are being pcrfonncd.

Recommendation 6. Conduct training on tbe req uirements in the District-Level Quality
Assurance Plan for Construction with all incoming and current quality assurance
personnel.

Concur. US/\CE's Area Ollice Un iversity provides quality assurance training to all QA
personnel prior to deployment. The USA CE TAN Commander will ensure that Area Engineers
conduct additional QA training ns needed on the District-Level Quality Assurance Plan for
Construction, with emphasis on the importance of inspections and co mprehensive
documentation. Additio nally. TAD wi ll validate. during stan- assistance visits in March and June
20 13 that qualit y a<>surancc personnel are adhering to the J)istrict- Lc vcl Quality Assurance Plan
lor Construction.




                                             Page· J-of3




                                                                24

